C'OCKLE

2311 Douglas Street A = E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ; re fs contact@cocklelegalbriefs.com
at, 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1029

CITY OF AUSTIN, TEXAS,
Petitioner,
v.
REAGAN NATIONAL ADVERTISING
OF AUSTIN, INCORPORATED. ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE AMERICAN
PLANNING ASSOCIATION AS AMICUS CURIAE IN SUPPORT OF NEITHER PARTY in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being

prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 6943 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 19th day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska ue 2 b s,
RENEE J. GOSS 9. ( lecsram ‘.
ah. My Comm. Exp. September 5, 2023

Affiant

Notary Public
41264
